<html>
<title> - Russia – Human Rights and Political Prospects</title>
<body><pre>[Joint House and Senate Hearing, 109 Congress]
[From the U.S. Government Publishing Office]


109th Congress 			            Printed for the use of the 
1st Session			            Commission on Security and Cooperation in Europe
_______________________________________________________________________________________________                                            
.                                            
  
                                RUSSIA: HUMAN RIGHTS AND 
                                  POLITICAL PROSPECTS


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                

                             June 23, 2005


                            Briefing of the
            Commission on Security and Cooperation in Europe
__________________________________________________________________________________________________
                            Washington: 2015
                                     

            
            
            
            Commission on Security and Cooperation in Europe

                     234 Ford House Office Building

                          Washington, DC 20515

                              202-225-1901

                          <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a4c7d7c7c1e4c9c5cdc88acccbd1d7c18ac3cbd2">[email&#160;protected]</a>

                          http://www.csce.gov

                      Legislative Branch Commissioners
                      
                      
          SENATE					HOUSE
    
                                                          
 BENJAMIN L. CARDIN, Maryland,			CHRISTOPHER SMITH, New Jersey,
  Chairman					 Co-Chairman
        
 SHELDON WHITEHOUSE, Rhode Island		JOSEPH PITTS, Pennsylvania

TOM UDALL, New Mexico				ROBERT ADERHOLT, Alabama

JEANNE SHAHEEN, New Hampshire			PHIL GINGREY, Georgia

RICHARD BLUMENTHAL, Connecticut			MICHAEL BURGESS, Texas

ROGER WICKER, Mississippi			ALCEE HASTINGS, Florida

SAXBY CHAMBLISS, Georgia			LOUISE McINTOSH SLAUGHTER,
						 New York
JOHN BOOZMAN, Arkansas				MIKE McINTYRE, North Carolina
						STEVE COHEN, Tennessee


                                  (ii)
                                     



           *         *         *         *         *
     ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE

The Helsinki process, formally titled the Conference on Security and 
Cooperation in Europe, traces its origin to the signing of the Helsinki 
Final Act in Finland on August 1, 1975, by the leaders of 33 European 
countries, the United States and Canada. As of January 1, 1995, the 
Helsinki process was renamed the Organization for Security and 
Cooperation in Europe (OSCE). The membership of the OSCE has expanded 
to 56 participating States, reflecting the breakup of the Soviet Union, 
Czechoslovakia, and Yugoslavia.
The OSCE Secretariat is in Vienna, Austria, where weekly meetings of 
the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
Although the OSCE continues to engage in standard setting in the fields 
of military security, economic and environmental cooperation, and human 
rights and humanitarian concerns, the Organization is primarily focused 
on initiatives designed to prevent, manage and resolve conflict within 
and among the participating States. The Organization deploys numerous 
missions and field activities located in Southeastern and Eastern 
Europe, the Caucasus, and Central Asia. The website of the OSCE is: 
<www.osce.org>.


           *         *         *         *         *
       ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

The Commission on Security and Cooperation in Europe, also known as the 
Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
The Commission consists of nine members from the United States Senate, 
nine members from the House of Representatives, and one member each 
from the Departments of State, Defense and Commerce. The positions of 
Chair and Co-Chair rotate between the Senate and House every two years, 
when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                                 (iii)
  
                                     

              RUSSIA: HUMAN RIGHTS AND POLITICAL PROSPECTS

                                  ------------

                                 June 23, 2005

                                 COMMISSIONERS

                                                                   Page
Hon. Mike McIntyre, Commission on Security and Cooperation in Europe...
                                                                      1
Hon. Alcee Hastings, Commission on Security and Cooperation in Europe..
                                                                      2

                                    WITNESS

Valentin Gefter, General Director, Human Rights Institute in Moscow....
                                                                      2

                                  PARTICIPANTS

Jon Finerty, Policy Advisor, Commission on Security and Cooperation in 
Europe.................................................................
                                                                      5
Ron McNamara, Policy Advisor, Commission on Security and Cooperation in 
Europe.................................................................
                                                                      6

                                  (iv)


              RUSSIA: HUMAN RIGHTS AND POLITICAL PROSPECTS

                              ------------

                             June 23, 2005

Commission on Security and Cooperation in Europe
                                                         Washington, DC

    The briefing was held at 2:00 p.m. EST in 2360 Rayburn House Office 
Building, Washington D.C., Congressman Mike McIntyre, presiding.
    Mr. McIntyre. OK, we'll bring this meeting of the Helsinki 
Commission to order, and the hearing today.
    I'm Congressman Mike McIntyre, a commissioner on the U.S. Helsinki 
Commission, and we welcome all of you today who have joined us.
    We know that several members are in and out because there will be 
votes this afternoon, and there's some other committee hearings going 
on currently but, nevertheless, we wanted to start this meeting on 
time. We hope that we'll be joined by other commission members during 
the course of the time today.
    We'd especially like to welcome during the summer months the 
college students who are here, and the Helsinki Commission is blessed 
with having Kyle Clark. Kyle, stand up, from the University of North 
Carolina. Beside him: My son, Joshua, and my new daughter-in-law, 
Caroline, who also graduated from UNC, who are here on Capitol Hill, 
and Caroline is with the U.S. Commission on International Religious 
Freedom.
    So we welcome them with us today as well.
    We especially want to welcome all of you who have taken the time to 
come here on this important subject involving Russia and human rights 
and political prospects.
    Today's special speaker, Valentin Gefter, is general director of 
the Human Rights Institute in Moscow, and he is also a fellow at the 
Kennan Institute in Washington, D.C., where he's working on a project 
on post-Soviet political persecution in countries of the CIS.
    His field study is human rights in transitional society. Born in 
1944, Mr. Gefter is a 1967 graduate of the mechanics and mathematics 
department of Moscow State University.
    After many years of work in research institutions at the Academy of 
Sciences, he became involved in 1995 in the work of the Memorial Human 
Rights Center, where he continues to head the program on political 
persecution in the CIS.
    Between 1996 and 2003 he also participated in the activity of state 
and Moscow city Duma committees, in working groups concerned with human 
rights, and served as an assistant to several members of these 
legislative institutions. He's co-editor of the Russian Human Rights 
Bulletin and editor of the ``Russian Messenger'' of Amnesty 
International.
    He's married and has one daughter, 25 years old. I know we all are 
proud of our children today, that we care so much about.
    I want to also recognize Congressman Alcee Hastings, of whom we are 
very proud, not only because he served so well in Congress and is a 
colleague of mine, that I enjoy knowing personally, but he also, of 
course, is our esteemed president, on the international level, of the 
Organization for Cooperation and Security in Europe.
    So before we have our guest speaker come, I want to call on Mr. 
Hastings.
    Mr. Hastings. Thank you, Congressman McIntyre.
    I'll add that this is one of many significant hearings that the 
Helsinki Commission is holding, and thank you for hosting it.
    I want to thank our presenter, Mr. Gefter, and welcome him here.
    I'm sure that he will edify us better as we progress, and if time 
permits, perhaps I might have a question or two, if permitted, Mr. 
Chairman.
    Mr. McIntyre. Thank you.
    Mr. Gefter, welcome, and we'll let you proceed.
    Mr. Gefter. Excuse me, please, for my primitive English--and maybe, 
I hope, nonprimitive thinking about my topic.
    I will try to read my preliminary text, but after, you can give me 
questions, of course.
    Dear commissioners, ladies and gentlemen, I am honored to speak 
here today on the human rights situation in Russia.
    Russia is becoming a normal country--slowly, and controversially; 
but as regards human rights, it has very little in common now with the 
so-called ``outcast'' countries.
    However, recently by now there black spot, so to say, on this 
surface which is not exactly shining, by the way.
    But first a couple of general words, especially starting with what 
is connected with Chechnya and how the authorities react to this awful 
terrorism all over Russia.
    As you know, authoritarian trends are increasing in Russia now, and 
one distinction of this trend should be criminal prosecution of the 
people who are socially. This should be clear identified as political 
immunity to persecution.
    What are the driving forces behind it? The most immediate one is 
the increasing role of the so-called power institutions, or, as we call 
them, power structures, sularikee and the security institutions too.
    This development is the result of many factors. Chechnya, who has 
often goes far beyond any understandable limits.
    Another factor is, next, people being unhappy and expressing their 
protest against the social and economic policies and against violation 
of their rights by individual officials.
    I believe the third is to what may be called preventive action--
from the side of state, of course.
    All the more often people are persecuted who are not happy with 
some individual official's actions or with some individual government 
body's actions while the authorities claim that this individual's 
action should be considered as representing the state and should be 
protected by the state.
    We don't mean that any such protests are illegal, and should be 
approved. What I am saying is the methods and the scope of state 
persecution, be it by legal or administrative or criminal persecution 
are not fair, obversely selective, and is directed against those who 
are not liked by the authorities or just by individual officials.
    My key conclusion may be preliminary. The first: There have been no 
mass criminal prosecutions now, recently in and used to be during, 
after and/or years of the Soviet Union. That is in the Soviet Union: A, 
based on ideology; B, declaring a large social group dangerous for 
state; or C, persecuting people for public criticism--as happened in 
the late Soviet times.
    The second position, point: There have been principal changes of 
the social, political and legal situation in the post-Soviet states, 
and in my native Russia, of course, too, but law enforcement borders 
have not changed that much. Their methods, are pretty much the same. 
Very often, political, corporate, and even personal reasons prevail 
over the rule of law.
    Besides that, the authorities should feel responsible for the whole 
political atmosphere in our country, which cannot be influenced with 
legal system.
    In conclusion--the last, but not the least, by my opinion--I would 
like to return to the most dangerous manifestations of the whole 
atmosphere, which I mentioned at the beginning.
    Besides numerous victims of the military conflict in Chechnya, and 
besides the convicted victims of campaign against ersatz terrorism, we 
have political prisons, prisoners, in Russia now. They are given huge 
prison sentences, as if murderers or criminals, and this was done in a 
manner which has nothing to do with the principles of the rule of law 
and habeas corpus.
    The authorities call them enemies of the state, and we call them 
victims of the regime.
    It's fike, the first, it's fike spies, in fact scholars, really--
Valentin Danilov and Eva Sutaget, who got 14 and 15 years in prison, 
correspondingly.
    The second one, Egor Sentagium's fate is especially hairy because 
he has already spent six years in prison for his open work and a 
military politics analyst, presumably in the interest of U.S., 
according to the core centers.
    The other two, the other persons, businessmen Vlasov Negediv and 
Mikhail Khodorkovsky, were selectively sentenced for nine years and had 
been singled out as scapegoats--one, to take responsibility for 
everybody who took part in development capitalism in Russia; and for 
their desire to get free from the bureaucratic dominance and to 
influence Russian politics, within constitutional limits, of course.
    Naturally, they are not the only names on the list of people who 
reestablishing itself in bloodthirsty bureaucracy, Polis Everet, first 
of all. Plus fighting for their liberation should be symbolic as 
demonstration of responsibility for democracy in Malta, in my country.
    In full correspondence with the law, their cases can and should be 
reconsidered or the process of pardon should be applied.
    Looking forward to the fast-coming G-8 meeting now, and considering 
the Kremlin's plan on welcoming the next G-8 summit meeting to Russia, 
the American Congress and the president of U.S.A. can say, ``We are 
happy to be partners in life'' to Russian leadership--``and stand 
together against numerous challenges,'' but we should begin with 
correcting the unfineness in our own homes.
    Each country should do its duty, recognize mitigating the suffering 
of those four people, who have already spent years in jail. By 
correcting these mistakes, reached, by my opinion, wars and crime you 
manifest your respect towards Russian constitution, towards the law in 
civil rights.
    Most probably demonstrating such an attitude might result in more 
involved than discussions about the changes in electoral processes or 
choosing the legal governments and even jail called for this whole 
process in Chechnya.
    Making these people free, might become clear an easier way for the 
authority to answer that question, where Russian politics are aimed at, 
toward our programs of human rights and freedoms for all persons, 
without exception, or towards state question and harassment without 
regard to what you have done.
    Thank you very much.
    Mr. McIntyre. Thank you very much for your testimony.
    Mr. Hastings, if you have any questions at this time?
    Mr. Hastings. I'd like to ask Dr. Gefter, first, I have visited 
Russia on four different occasions, and each time I felt that things 
were changing and that you could see positive aspects in the society.
    I make it a practice, when I go to places, to take the bus or the 
train, and in St. Petersburg, I spent about three hours alone just 
riding the bus system and underground. It was enjoyable for the reason 
that I could feel the sense of the people. I just add that part to 
demonstrate a little insight as to an American view of Russia.
    I also was a participant in the December elections, as a monitor 
for OSCE.
    But I've found the people, again, to be very forthcoming at the 
election sites, and I went to 11 in the south of Moscow.
    But my question goes to the subjects that continue to come up about 
human rights and ethnic minorities, and one thing I do not know or 
clearly understand is the effect of the war in Chechnya on Russian 
society as a whole.
    We see on the television here when buildings are blown up, and it's 
suspected that it's done by terrorists, so to speak. But how has that 
affected Russian society?
    Dr. Gefter, one other component of that is: Does anti-Semitism--how 
do you assess the situation of the Jewish community in Russia or other 
ethnic minorities? I would be interested in your comments.
    That would be all, Mr. Chairman, that I would have at this time.
    Mr. McIntyre. Thank you.
    Mr. Gefter. Thank you for your question.
    Some parts of my--delighted parts of my answer.
    At all reactions of Chechnyan events are very different in 
different parts of Russia. Maybe in neighboring area republics and 
south Russia, that is more intensive, because as--depending not only 
from war or even on the terrorist attacks, but the whole atmosphere is 
connected with the level of violations from the state actors and other 
social groups and social parties but in the main Russia, mostly persons 
are not connected with Chechnya, their ordinary life is not related 
directly from these events.
    But the level of state violence--I mean state violence as the 
violence on the part of police and military officials, from bottom to 
top of this system--isn't growing, but in the last year we have, in 
bits of Russia--not provincial, no provincial areas, no areas--some 
attacks from the side of this policy main center, by contract, to serve 
by contract in Chechnya and return to their places, native places, 
attacks on these persons' businesses, without reason maybe, and there 
is, not the widespread situation, of course, but it's very dangerous, 
because in usual life not only connected with police working with 
crime, not always, because they are working with their relations as 
usual, too, is the first thing.
    But the second question from you, connected with ethnic 
discrimination: By my opinion, personally, the discrimination of Jews 
is maybe on a very lower level from Soviet and maybe pre-Soviet times, 
but mostly there are no official collegiates in this field.
    Two conditions here, to defend them from--defending the persons 
from not each kind of ethnic discrimination, and you understand me that 
in connection with Chechnya, the maximum of ethnic discrimination 
concerns to the persons who leave or arrive from Moscow, especially 
Chechnyans, native Chechnyans--beimach.
    It's a serious problem. She is--not constantly grows, maybe, 
dangerous, of this problem, but sometimes, especially after terroristic 
attacks or another even train line or surface, we are watch the very 
significant influence of this discrimination.
    But these kind of discriminations is provided not only officials, 
usually of the middle level, by the police officer, by the usual man of 
the market, on the street, and maybe on the schools, where. It's an 
illness watch those on the association to hold social organism inside 
Russia. Sometimes you will want to see by your own eyes, as you--when 
you arrived to bus station, train station, but is a serious problem.
    Thank you.
    Mr. McIntyre. Thank you. Can you tell us, in your opinion, why you 
believe President Putin has decided to limit civil liberties and human 
rights in order to, quote, ``manage democracy,'' and your analysis of 
why he's doing that and whether or not you think that will be 
effective.
    Mr. Gefter. By my opinion, managed democracy is a stage term, of 
course, but it's not a constant trend of Russia top politics, because 
at the beginning of Putin's term, maybe some official ideologies 
promote this idea as anti-anarchist in times for instance, ruling, et 
cetera, but maybe they saw that ruling is not the center from Kremlin 
only, maybe there's more not onboard.
    But in our side, in this middle of the second term of Putin ruling, 
the more usual term ``limited democracy.'' By my opinion, the powers 
extending--being against their ideas, forced them to rule what they 
constructed.
    Mr. Finerty. ``The authorities themselves have kind of run 
themselves up against the wall to save themselves,'' as he put it.
    Mr. Gefter. Yes.
    Mr. McIntyre. OK.
    Mr. Gefter. Because ideas of more liberal members of Putin's 
administration, maybe, liberal economists and senators, consist from 
simple ideas.
    Our country needs consolidation, consolidation attempts, to provide 
socially unpopular reforms, unpopular social reforms, in different 
branches of life, and for this the other members, maybe, of Putin's 
administration gave attempts to rule on the parliament's activity of 
organization, et cetera, for--combine and don't attempt to, until 
special discussions, long-time promotion of reform, et cetera, et 
cetera.
    But at this moment, they have the opposite situation. The minimum 
attempts of providing this report stops by the absence of feedback from 
society.
    Mr. McIntyre. So do you think Putin's plan to do that is going to 
work? Would you say yes or no or maybe?
    Mr. Gefter. I mean that this clearly is a question with concern to 
the hope that Putin--President Putin have hopes on the results of his 
policies. I mean that not because he has not time for it in this term. 
Because, as I was saying, the previous attempts are stopped in the very 
positive time, the oil price, the international situation, et cetera, 
et cetera.
    But now his government and his relatives have no time for long and 
unpopular reforming or in various branches of social life.
    Mr. McIntyre. Thank you, sir.
    Mr. McNamara, who works with the staff, I'm going to let him 
continue chairing the meeting since I have to go to an Armed Services 
meeting with the secretary of defense.
    I want to thank you very much.
    Mr. McNamara. Great. Thank you very much, Congressman.
    My name is Ron McNamara. I'm currently serving as the international 
policy director for the Helsinki Commission.
    I should indicate that there will be a transcription of today's 
proceedings available on the commission's Web site within 24 hours. Our 
Web site is www.csce.gov.
    As part of our normal format for briefings we will open up to 
questions from the audience. We'd ask that you use the microphone when 
we do open it up to your questions, and please indicate your name, any 
affiliation that you might have, and try to succinctly pose your 
question to our expert this afternoon.
    There were a couple of points that I'd like to see if I could pick 
up on.
    One is that despite his lip service, talking about the important 
role of civil society in the Russian Federation, his administration is 
not always particularly friendly to nongovernmental organizations, and 
certainly an important element of civil society is the media, and media 
outlets have and continue to come under pressure even as quasi-state 
enterprises snatch up their ownership--most recently Izvestia. ``So 
goes the news,'' I guess I might say.
    I wonder if you could elaborate a little bit in terms of this whole 
approach of the Kremlin vis-a-vis the media outlets in the country--
because on a certain level there's sort of a vibrant press, some, 
certainly, of the electronic media, especially, and now we see, with 
the takeover of Izvestia, that there's quite a concerted effort to try 
to have some control over some of the media outlets.
    Mr. Gefter. Maybe the freedom and the status of media is not in the 
range of my interest and my activity, but I personally wrote in 
Izvestia during my working in an institution for three months. I had 
two small notes in Izvestia concern to very sharp moment of our public 
life. If you're not, of course, as one example, not the general 
picture.
    But by my opinion, the problem is not connected with freedom. 
Maybe, more exactly, to say: about independence. Because frequently the 
media are not depended from different ideas, different representations 
of different government.
    The journalists, the persons who are working in media, frequently 
state the goal to give his own representative or their own views on 
life, not give the wide spectrum of opinions, is the first.
    The second, frequently in Russian media, and in Estonia paper too, 
not dividing the opinions and the news. It's a very strange mixture. 
Maybe for Americans it's not understandable----
    Mr. McNamara. We understand it to some extent, too.
    Mr. Gefter [continuing]. But it's very strange for us--what is the 
view, what is the fact, what is your opinion, but I don't have interest 
in your opinion as a private person. This picture is misunderstanding 
of not only for reason of depending with ruling on the Kremlin or on 
Gastrom, oftenly is not.
    Maybe own censorship is more--as a censorship dependent not on 
limits of and borders of representations, it's own mentality its own 
censorship is prevailed on the state censorship, who, of course, take 
place in the state, in the state media, the official as second channel.
    But for me, as a usual citizen, Russian citizen, as inspector of 
most media is enough to know the use it's enough. But maybe for some 
members of opposite parties, members of very strong opposition 
movements, are not of the situation, because they don't have the 
possibility of speaking as a--in this TV or radio station.
    Sorry for my primitive----
    Mr. McNamara. No, not at all. You're doing great.
    If you have any questions--from the audience--again, please 
approach the microphone here at the podium, and please give your name 
and your affiliation.
    Mr. Jonas. My name is Sam Jonas. I'm here on behalf of Benjamin 
Cardin's office.
    Mr. McNamara. Mr. Cardin is our ranking member from the House side.
    Mr. Jonas. My question has to do with the OSC parliamentary 
assembly starting next week.
    In your estimation, what effect, if any, will this event have on 
the human rights situation in Russia and Russian-American relations?
    Mr. Gefter. I don't represent the influence of this event, of 
course, but if you understand my primitive proposal to push on Russian 
officials, maybe some small point, small point, related with maybe some 
personal.
    My idea that pushing, pressing, on Russian policy in human rights 
field maybe begin not from general attacks on the political system in 
Russia, maybe the Americans and some parliamentarians from this 
assembly could begin from--decide more concrete problem with political 
persecutions, with other, very important, but limit it in volume.
    Mr. McNamara. Being specific, and if there are specific cases as 
opposed to systemic questions.
    Mr. Gefter. Yes. Because the systemic is very long and very 
sophisticated in discussing the problem. It's important, of course.
    But this problem, especially what is connected with the fate of 
people with sentences, with long imprisonment, et cetera, it's very 
important and a very practical approach, by my opinion.
    Mr. Jonas. Thank you for your answer.
    Ms. Mullen. My name is Mary Mullen, and I'm from the advisory and 
support committee.
    I saw on BBC--which I watch each evening--a small showing of 
Chechnya and of Russian soldiers going into Chechnyan homes and taking 
out boys about 10 or 11 years old, and the family was screaming and the 
boys were begging, ``Don't take me,'' and I'm wondering: What do they 
do with these boys and do you know about this and is this part of the 
human rights complaints or--if you could discuss it, I would appreciate 
it.
    Mr. Gefter. It's a very serious problem, of course, but I don't 
know about concrete conditions. By my representation of modern--of 
current situation at Chechnya, there are not often attacks on small 
children or women or ageds, et cetera.
    Now, there are very controversial situation in some areas inside 
Chechnya, because the actors, military actors, not only officials, 
actors are federal war institutions, are Chechnyan institutions, are 
separatist forces, et cetera. But there are some--and especially 
military--officials, authorities, by my representation, of course, 
transition are not strong control and strong ruling of activities of 
each soldier, each officer, especially who arrived from other regions 
from Russia by contract.
    It's my condemnation to my government, my criticism of my 
government, connected more with unrolling of this process, on the 
excellence of attempts to judge, to punish, the persons who have--their 
human rights violation of the people, et cetera, more than direct 
ruling of this kind.
    But the last--not the least--problem connected with some criminal 
sources against military officers, who has crimes against--this whole 
operation in Chechnya, some Jews in Rostov and in other cities, 
regions, of Russia are not given the convictions coming in, no 
convictions. In real cases, when military kills some persons, it's not 
questions about it. Maybe with the order of above, but the juries, 
usual Russian citizens, don't wish record life. This is a crime.
    It's a very, very dangerous situation from the special bottom, not 
only from top of the power.
    Mr. Mullen. Because of the terrorist attacks on the Chechnyans, 
they feel perhaps that.
    I wanted to know if you knew what happened to the boys, though. Why 
were they taking those boys? Do they use them in their army? What do 
they use the boys for?
    Mr. Gefter. Yes. I don't understand this concrete fact. Assure that 
that's not constructed by nature, because sometimes ``military person'' 
means that teenagers, not 10-year-olds--maybe 15-year-olds, maybe 16-
year-olds--belong to separatistic military or to rebels.
    But it's not constant and widespread situation--by my opinion so--I 
don't work in Chechnya in this war, only in the first war times.
    Ms. Homer. My name is Lauren Homer, and I'm with International Law 
Group, a private law firm. My area of expertise is religious freedom in 
Russia.
    But I have a more general question, it follows on the last one, 
which is: To what extent do you think that the human rights violations 
that we're seeing all over Russia and in the religious freedom area--
where churches are being knocked down or closed, and just all sorts of 
lawless activities going on--is due to the overall breakdown of the 
Russian governmental system and to what extent do you think it's part 
of a deliberate state policy of picking on weaker groups because 
they're easy to pick on, no one's standing up for them, and then it 
gives some of the anger and darker forces in society an outlet?
    Mr. Gefter. I mean, it's not a common uniform picture. There are 
some cases, of course. I don't mean that there exists official politics 
in this, as it exists it's not, but in some regions, or in some 
situations in some regions, the influence of Russian Orthodox Church or 
other influential--not necessarily official--group is very great.
    The bureaucrats or the, maybe, middle level--not Moscow, Kremlin, 
et cetera have the tradition. Who is the main in my area? At Soviet 
times it's Reichholm and the KJB, et cetera. Now who is it? Maybe a 
governor, maybe a great businessman, or a criminal, and sometimes this 
Russian Orthodox Church and other conventional persons.
    By my opinion, usually this case is connected with, by Russian 
terms, ``syecht'' it's more easily object for attack. Oftenly they are 
working in the gray zone between traditional religious forms and trends 
and for powers, for national sort of so it's more easy to push public 
opinion, very often--newspapers or other mass media--against these 
small groups. But sometimes the official politics against ego with, 
instance, some special groups too, and they laugh.
    By my opinion, what's very dangerous now is widespread opinion and 
the attempts to attack Muslim groups, especially Muslim groups who 
became--belonged to radical Islam. Not military radical, of course. 
It's: radical by opinion, by representation of world, et cetera. Cheev 
Butach Reev groups, for example, et cetera.
    It is very dangerous, because this attack is organized by radical 
things, from Supreme Court of Russian Federation, who gave the special 
decision in this Muslim organizations, and up to police, up to, say, 
local officials, by my opinion, is more dangerous than others.
    Mr. Vasilevf. My name is Pasha Vasilevf. I am from the Center of 
Strategic and International Studies.
    My question is related to an institution that I think is quite 
famous related to hazing in the military, where it's been the same in 
the Soviet times, and it seems to continue and to even become worse 
recently. I wanted to know your opinion about what is going on and if 
the Russian government is trying to or doing something about that 
situation.
    Mr. Gefter. I'm afraid that not, but now, I know, our ombudsman 
suggested to discuss--to organize role police, special-role police, 
what did not--belongs to Defense Ministry and towards--one of the roles 
of this special institution must be directed against citizenship, 
maybe.
    By my opinion, there are not palliative decisions. By the opinion 
of march of NGO's activities is the main step to stop this, even is 
regulating from compulsory military service.
    By my opinion and by opinion of much of us, of them, the 
alternative here is not the decision in our condition, as we hope, as 
we go. Maybe after some years. In real conditions, Chechnyan war, of 
counterterroristic and other--even since the wars in Russia, it's not 
possible in the role as a society.
    Mr. Vasilevf. Thank you.
    Mr. McNamara. I wanted to pick up on a point that you sort of 
alluded to a little bit, and that is in sort of the area of democracy 
in Russia.
    We have to ask ourselves: What are the checks in place against the 
executive power in your country?
    Mr. Gefter. ``Checks''----
    Mr. McNamara. In other words, sort of checks and balances. Here in 
the United States context you have the Congress and so forth, and 
understandably there's a parliamentary system in Russia, but even 
there, there doesn't have to be sort of unanimity of opinion between 
the legislative and executive branch.
    Is the state Duma a check against the Putin administration? The 
courts? Or the people? Because frankly I found it quite interesting--
the manifestation after the proposed reforms of the social net, that 
that seemed to get the attention of the authorities.
    But in the normal course of the governance, what controls are 
there, really, on executive power in Russia today?
    Mr. Gefter. Yes. Maybe, by my sophist opinion, in order to give a 
view on this problem, as I say, the main point of--there are not 
institutional opponents to Kremlin, to top power in the country, but I 
hope--and maybe my colleagues hope--that there are some limits of power 
inside the power, not between the branches--in usual democracy of a 
country--but between some groups inside refuge of power.
    My personal hope maybe connected with well-known institutions, warn 
about the power, as the power is a lone European actor in Russia.
    It's not real now, of course, after 200 years, after Pushkin times, 
but maybe the representative views on top leaders of our country is not 
simply Soviet once, 20 and 30 years ago, because it's who not go away. 
He represents the--modern Russia is--strongly rules the country, but 
the Western side of the country. Maybe authoritarian country, not with 
the corpus (ph), the warrants of rights, not the totalitarian regime.
    Long term I hope only on activity of usual, still activity of 
persons who, by my opinion, the volume of these persons, the quantity 
of these persons, slowly grow--in business, in NGO, in other branches 
of life. But it's very long time, you understand.
    Mr. McNamara. Well, I was interested, because in President Putin's 
most recent state of the federation address, after bemoaning the demise 
of the Soviet Union he then went on to boldly declare that ``The ideals 
of freedom, human rights, justice and democracy have for many centuries 
been our society's determining values'' and then concluded that ``Ours 
is a free nation.'' That was his take.
    I don't know if you have any reaction. I know my colleague, John 
Finerty, has something.
    Mr. Finerty. I just wondered, Valentin, if I could follow up.
    You said that you rely on the average citizen--you think that the 
hope of Russia is the average Russian citizen.
    You and I are about the same age. You might be a little older than 
I am. But for a while it was common, in the United States, in the West, 
that the younger generation of Russians would sort of be the ones that 
would lead forward and the older generation were the ones with the 
older ideas.
    Do you think that's the case, by and large, in Russia today?
    Mr. Gefter. Maybe I am not belonging to understand innovation.
    By my opinion, some part of them are not politically and socially 
involved, in modern terms, at all. In general, Russian society is very 
automatizated, very integrated, more than--easily more than Soviet 
times, by my opinion, and maybe, in the same view, more than too, 
because our tradition of social collective life is fascinated, 
fasciticated, by Soviet way of life, and now much of young persons talk 
about his career, his money, his racing, et cetera, et cetera, not 
about--as last time.
    We see some parts of politically-orientated young persons, with a 
lot of them directed in the official, ideological direction role of 
state as the main actor and similar ones. The official source of 
support--of course, support by money, by other things--support these 
attempts to organize.
    But, by my opinion, it's not a crucial part of society. For me, 
more important is the social public activity. Then their absence of 
interest.
    Mr. McNamara. Are there any further questions?
    Well, thank you very much for coming.
    I'd just note that the upcoming G-8 summit meeting--that you 
referred to--in Scotland in early July provides another opportunity for 
President Bush to meet with his Russian counterpart and to discuss 
bilateral relations, and our commission is circulating amongst our 
members a letter to President Bush, urging him to raise some of the 
human rights issues, some of which were raised during our briefing here 
this afternoon.
    Again, I welcome the fact that you've come this afternoon to join 
us.
    A transcript will be available, as well as other materials, on our 
Web site: www.csce.gov.
    Thank you very much.
    Whereupon the briefing ended at 3:06 p.m.
  
  
This is an official publication of the
Commission on Security and
Cooperation in Europe.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

This publication is intended to document
developments and trends in participating
States of the Organization for Security
and Cooperation in Europe (OSCE).

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

All Commission publications may be freely
reproduced, in any form, with appropriate
credit. The Commission encourages
the widest possible dissemination
of its publications.

<SUP><</SUP> <SUP><</SUP> <SUP><</SUP>

http://www.csce.gov     @HelsinkiComm

The Commission's Web site provides
access to the latest press releases
and reports, as well as hearings and
briefings. Using the Commission's electronic
subscription service, readers are able
to receive press releases, articles,
and other materials by topic or countries
of particular interest.

Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
